No. 20-740

 

 

IN THE

Supreme Court of the United States

JIM BOGNET, et al.,
Petitioners,
v.
VERONICA DEGRAFFENREID, ACTING SECRETARY OF THE
COMMONWEALTH OF PENNSYLVANIA, et al.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

BRIEF OF RESPONDENT VERONICA DEGRAFFENREID,
ACTING SECRETARY OF THE COMMONWEALTH OF PENNSYLVANIA,
IN OPPOSITION TO PETITION FOR CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.2(b), I certify that the document contains
37 pages, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 15, 2021.

 

Colin Casey Hégan
Wilson-Epes Printing Co., Inc.
